FY 2010 PERFORMANCE REPORT




SOCIAL SECURITY ADMINISTRATION
OFFICE OF THE INSPECTOR GENERAL
                  Table of Contents


Executive Summary…………………………………………………..              1

Performance Results……………………………………….…………             2

Performance Discussion and Analysis ……………………….………   3

    Goal 1 – Impact ……………………………………………….. 3

    Goal 2 – Value ………………………………………………… 5

    Goal 3 – People ………………………………………………... 8

Historical Comparison………………………………………………… 10
                MISSION STATEMENT



By conducting independent and objective audits, evaluations and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste and abuse. We
  provide timely, useful and reliable information and advice to
        Administration officials, Congress and the public.




                 VISION and VALUES


     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
    prevent and deter fraud, waste and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                            EXECUTIVE SUMMARY




This 2010 Performance Report focuses on the Office of the Inspector General’s (OIG)
results for the fifth and final year of our Fiscal Year (FY) 2006-2010 Revised Strategic
Plan. We operate within a framework set by three general goals: Impact, Value and
People. These goals are divided into 14 separate performance measures. For FY 2010,
we successfully met the targets for all 14 of the performance measures.

We work to have a positive impact on SSA programs and operations by enhancing their
integrity, efficiency and effectiveness. During FY 2010, our investigators evaluated and
responded to 97 percent of all allegations received within 45 days. Our auditors also had
significant impact. We issued 94 percent of audit reports within 1 year of their respective
entrance conferences.

Our organization strives to provide value in our service to Congress, SSA, and other key
decision-makers, while sustaining a positive return for each tax dollar invested in OIG
activities. For FY 2010, we generated a positive return of $48 for every tax dollar
invested.

The collective efforts of our people and our support of them continue to be the driving
force behind this organization’s success in meeting its mission. Our leadership fosters an
environment where employees can realize their potential through training and
developmental programs. For FY 2010, 98 percent of OIG staff received 40 or more
hours of appropriate developmental and skill enhancement training, which demonstrates
the OIG’s commitment to having a capable and professional workforce.

Our successful completion of the OIG Strategic Plan demonstrates our continued success
in achieving our overall mission: inspiring public confidence by detecting and preventing
fraud, waste, and abuse in SSA's programs and operations.




November 2010                SSA OIG FY 2010 Performance Report             Page 1
                                     PERFORMANCE RESULTS


                                                                                              GOALS
GOAL                      DESCRIPTION                              TARGET RESULT           MET    NOT
                                                                                                  MET
                                                   IMPACT
       Maintain an annual acceptance rate of at least
 1.1                                                                88%         95%            X
       88 percent for all recommendations.
       Achieve a 5-year average implementation rate of 85
       percent for accepted recommendations aimed at
 1.2                                                                85%         86%            X
       improving the integrity, efficiency, and effectiveness of
       SSA.
       Achieve a positive action on at least 75 percent of all
 1.3                                                                75%         80%            X
       cases closed during the FY.
                                                    VALUE
       Generate a positive return of $6 for every tax dollar
 2.1                                                               $6 to $1   $48 to $1        X
       invested in OIG activities.
       Evaluate and respond to 90 percent of all allegations
 2.2                                                                90%         97%            X
       received within 45 days.
       Complete investigative fieldwork on 75 percent of all
 2.3                                                                75%         86%            X
       cases within 180 days.
       Respond to 90 percent of congressional requests within
 2.4                                                                90%         96%            X
       21 days.
       Take action on 90 percent of Civil Monetary Penalty
 2.5                                                                90%         97%            X
       (CMP) subjects within 30 days of receipt.
       Achieve a positive external user assessment rating of
 2.6                                                                85%         95%            X
       85 percent for product-service quality.
       Issue 78 percent of final audit reports within 1 year of
 2.7                                                                78%         94%            X
       the entrance conference with SSA.
       Complete 85 percent of requests for legal advice and
 2.8                                                                85%         99%            X
       review within 30 days.
                                                   PEOPLE
 3.1   Achieve an annual attrition rate of 5 percent or less.        5%         4%             X
       Conduct an annual employee job-satisfaction survey
 3.2   and implement corrective action plans to identify areas      75%         75%            X
       where improvement is needed.
       Ensure that 90 percent of OIG staff receives 40 or
 3.3   more hours of appropriate developmental and                  90%         98%            X
       skill-enhancement training annually.




         November 2010                 SSA OIG FY 2010 Performance Report             Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS


This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the three general areas. We
state each goal and its associated measures, and describe the method of calculation. We
also discuss, where appropriate, why we believe we were successful or unsuccessful in
meeting our goals.


  Goal 1 – IMPACT
                Enhance the integrity, efficiency and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

    1. Promote an OIG-wide process for cross-component communications on potential
       programmatic and operational vulnerabilities.

    2. Communicate with the Agency to identify mission-critical issues and operations
       that would benefit from OIG audit and investigation services and develop
       practical solutions to address identified weaknesses or deficiencies.

    3. Prioritize investigations, audits, and counsel actions to effect more efficient and
       effective SSA programs and operations.


              Maintain an annual acceptance rate of at least             FY 2010 Result
 Goal 1.1
              88 percent for all recommendations.                          95 Percent

This measure is calculated by dividing the number of legislative, policy, and regulatory
recommendations accepted by SSA and/or Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2010, our annual acceptance rate was 95 percent, exceeding our 88 percent goal. Of
the 155 recommendations we submitted during this period that have a management
decision, SSA agreed with 148.




November 2010                 SSA OIG FY 2010 Performance Report             Page 3
             Achieve a 5-year average implementation rate of
             85 percent for accepted recommendations aimed             FY 2010 Result
 Goal 1.2
             at improving the integrity, efficiency, and                 86 Percent
             effectiveness of SSA.

This measure is calculated by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2010 we are reporting the 5-year period
covering FYs 2005 through 2009. Our average implementation rate for accepted audit
recommendations was 86 percent, exceeding our 85 percent goal. During this period, SSA
implemented 1,302 of 1,506 accepted recommendations.


             Achieve a positive action on at least 75                FY 2010 Result
 Goal 1.3
             percent of all cases closed during the FY.                80 Percent

This measure is calculated by dividing the total closed cases that resulted in a positive
action during the FY by the total cases closed during the FY. If the subject has been
sentenced, a CMP has been imposed, and/or an administrative action has been taken against
the subject, it is considered a positive action on the closed case. In addition, if certain
money types have been collected or if benefits were terminated, reduced or suspended, or
certain referrals have been made it is considered a positive action.

For FY 2010, we closed 5,477 out of 6,853 investigations with a positive action. This 80
percent performance rate exceeds our 75 percent target.




November 2010               SSA OIG FY 2010 Performance Report            Page 4
   Goal 2 – VALUE
  Provide quality products and services of value in a timely manner to Congress, SSA
  and other key decision-makers while sustaining a positive return for each tax dollar
                              invested in OIG activities.

Strategies used to attain this goal include:

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service
      quality assessment instrument to measure external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and
      services.

   4. Utilize information technology investments to enhance OIG work products and
      service delivery.

              Generate a positive return of $6 for every tax          FY 2010 Result
 Goal 2.1
              dollar invested in OIG activities.                        $48 to $1

This measure is calculated by dividing the total amount of all OIG savings identified during
the FY by the total amount of appropriated funds during the same period.

For FY 2010, we generated a return of $48 for every dollar invested in us by the taxpayer.
This rate of return was bolstered by 3 audit reports entitled, Supplemental Security Income
Recipients Eligible for Veterans Benefits (A-01-09-19031); Follow-up: The Social Security
Administration's Controls over the Write-Off of Title XVI Overpayments (A-04-09-19138);
and Benefits Payable to Child Beneficiaries Who No Longer Need Representative Payees
(A-09-09-29116). In these reports, we identified over $1.3 billion in Questioned Costs.


              Evaluate and respond to 90 percent of all               FY 2010 Result
 Goal 2.2
              allegations received within 45 days.                      97 Percent

This measure is calculated by dividing the total number of allegations closed or referred
within 45 days during the FY by the total number of allegations closed or referred during
the FY.

For FY 2010, we evaluated and responded to 97 percent of all allegations received within 45
days. Of the 103,630 allegations closed or referred during the FY, we closed or referred
100,043 within 45 days.



November 2010                 SSA OIG FY 2010 Performance Report           Page 5
             Complete investigative fieldwork on 75 percent            FY 2010 Result
 Goal 2.3
             of all cases within 180 days.                               86 Percent

This measure is calculated by dividing the total number of investigations closed or referred
for prosecution, CMP, SSA or other State or Federal agency action within 180 days during
the FY by the total investigations closed or referred during the FY.

For FY 2010, we surpassed our 75 percent goal with an 86 percent rating. We closed or
referred a total of 7,109 investigations during the FY. Of these, we closed or referred 6,098
cases for action within 180 days.


             Respond to 90 percent of congressional                    FY 2010 Result
 Goal 2.4
             requests within 21 days.                                    96 Percent

This measure is calculated by dividing the total congressional requests responded to within
21 days during the FY by the total number of congressional requests responded to during
the FY. Processing days are the days elapsed from receipt of a congressional request to the
date of a response.

For FY 2010, we responded to 51 (96 percent) of 53 congressional inquiries within 21 days.


             Take action on 90 percent of Civil Monetary
                                                                       FY 2010 Result
 Goal 2.5    Penalty (CMP) subjects within 30 days of
                                                                         97 Percent
             receipt.

This measure is calculated by dividing the total number of CMP subjects against whom
initial action was taken within 30 days of receipt during the FY, by the total number of CMP
subjects where action was taken during the FY. Initial actions are defined as sending a
letter to the subject either stating an intention to pursue a CMP; or indicating that a CMP
will not be proposed at this time, and directing the subject to SSA to make arrangements for
repayment or other actions.

For FY 2010, we took action within 30 days on 1,870 (97 percent) of 1,938 CMP subjects.




November 2010                SSA OIG FY 2010 Performance Report             Page 6
             Achieve a positive external user assessment               FY 2010 Result
 Goal 2.6
             rating of 85 percent for product-service quality.           95 Percent

This measure is calculated by using a five-tier rating scale measuring the degree of
satisfaction with OIG products and services by recipients and users, including SSA and
other government entities, such as Congress, Offices of U.S. Attorneys, and external law
enforcement agencies. The numeric response is translated into a percentage, with 85
percent indicating satisfaction.

For FY 2010, we achieved a 95 percent rating, exceeding our goal of 85 percent.

             Issue 78 percent of final audit reports within 1          FY 2010 Result
 Goal 2.7
             year of the entrance conference with SSA.                   94 Percent

This measure is calculated by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2010, our office achieved a 94 percent rating, exceeding our goal of 78 percent. We
issued 102 of 108 reports during the FY within 1 year of their respective entrance
conferences.


             Complete 85 percent of requests for legal                 FY 2010 Result
 Goal 2.8
             advice and review within 30 days.                           99 Percent

This measure is calculated by dividing the total number of legal opinions, subpoenas and
audit reviews completed by the Office of Counsel to the Inspector General within 30 days of
receipt during the FY by the total number of requests for legal opinions, subpoenas and
audit reviews completed during the FY.

During FY 2010, we completed 800 (99 percent) of the 811 requests for legal opinions,
subpoenas and audit reviews within 30 days.




November 2010                SSA OIG FY 2010 Performance Report             Page 7
    Goal 3 – PEOPLE
   Promote a skilled, motivated, diverse workforce in a positive and rewarding work
                                     environment.

Strategies used to attain this goal include:

   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional
      development and skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet
      different needs.

              Achieve an annual attrition rate of 5 percent or       FY 2010 Result
 Goal 3.1
                                  less.                                4 Percent

This measure is calculated by dividing the total number of employees separated (excluding
retirements and deaths) during the FY by the OIG Average Workforce for the FY.

For FY 2010, there were 25 separations from the OIG’s 588 Average Workforce, which is
equivalent to a 4 percent attrition rate.


             Conduct an annual employee job-satisfaction
                                                                     FY 2010 Result
 Goal 3.2    survey and implement corrective action plans to
                                                                       75 Percent
             identify areas where improvement is needed.

The OIG’s Organizational Health Committee implemented an annual employee job-
satisfaction survey beginning in FY 2006. The survey consisted of 13 questions. Our goal
was to have an average score of 75 percent for the questions asked. This goal was again
met this year, demonstrating a high level of employee satisfaction.




November 2010                 SSA OIG FY 2010 Performance Report         Page 8
             Ensure that 90 percent of OIG staff receives 40
                                                                      FY 2010 Result
Goal 3.3     or more hours of appropriate developmental
                                                                        98 Percent
             and skill-enhancement training annually.

This measure is calculated by dividing the total number of OIG staff on board for the entire
FY receiving at least 40 hours of training during the FY by the total number of OIG staff on
board for the entire FY.

For FY 2010, 98 percent of our employees received 40 or more hours of appropriate
developmental and/or skill-enhancement training. Achieving this goal demonstrates our
commitment to having a capable and professional workforce. The continual development of
our employees underlies our successful performance as an organization.




November 2010               SSA OIG FY 2010 Performance Report             Page 9
                           HISTORICAL COMPARISON


                                                                       FY 2008 FY 2009
GOAL                           DESCRIPTION
                                                                      RESULTS RESULTS
           Maintain an annual acceptance rate of at least
    1.1                                                                 96%         98%
           85 percent for all recommendations.
           Through FY 2010, achieve a 5-year average
           implementation rate of 85 percent for accepted
    1.2                                                                 89%         88%
           recommendations aimed at improving the integrity,
           efficiency and effectiveness of SSA.
           Achieve a positive action on at least 75 percent of all
    1.31                                                                93%         75%
           cases closed during the FY.
           Generate a positive return of $6 for every tax dollar
    2.12                                                              $42 to $1   $85 to $1
           invested in OIG activities.
           Evaluate and respond to 90 percent of all allegations
    2.23                                                                95%         96%
           received within 45 days.
           Complete investigative fieldwork on 75 percent of all
    2.3                                                                 94%         89%
           cases within 180 days.
           Respond to 90 percent of congressional requests within
    2.4                                                                 98%        100%
           21 days.
           Take action on 90 percent of Civil Monetary Penalty
    2.5                                                                 94%         97%
           (CMP) subjects within 30 days of receipt.
           Achieve a positive internal and external user
    2.6    assessment rating of 85 percent for                          89%         92%
           product-service quality.
           Issue 78 percent of final audit reports within 1 year of
    2.74                                                                83%         92%
           the entrance conference with SSA.
           Complete 85 percent of requests for legal advice and
    2.85                                                                99%         98%
           review within 30 days.
    3.1    Achieve an annual attrition rate of 5 percent or less.       6%          4%
           Conduct an annual employee job-satisfaction survey
    3.2    and implement corrective action plans to identify areas      79%         78%
           where improvement is needed.
           Ensure that 90 percent of OIG staff receives 40 or
    3.3    more hours of appropriate developmental and                  96%         99%
           skill-enhancement training annually.

1
  Goal 1.3 – FY 2009 80% changed to 75%
2
  Goal 2.1 – FY 2008 changed from $4 to $6
3
  Goal 2.2 – FY 2009 30 days changed to 45 days
4
  Goal 2.7 – FY 2008 changed to 78%
5
  Goal 2.8 – FY 2008 changed to 85%




November 2010                   SSA OIG FY 2010 Performance Report            Page 10
